 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         The Office of Disclosure Continues
                          to Improve Compliance With the
                      Freedom of Information Act Requirements



                                          September 6, 2011

                                 Reference Number: 2011-30-093




    This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
     and information determined to be restricted from public release has been redacted from this document.



  Redaction Legend: 1 = Tax Return/Return Information



Phone Number | 202-622-6500
Email Address | TIGTACommunications@tigta.treas.gov
Web Site     | http://www.tigta.gov
                                                   HIGHLIGHTS


THE OFFICE OF DISCLOSURE                              under I.R.C. § 6103 in all 65 requests TIGTA
CONTINUES TO IMPROVE COMPLIANCE                       reviewed.
WITH THE FREEDOM OF INFORMATION                       Since Fiscal Year 2000, the IRS has made
ACT REQUIREMENTS                                      significant improvement in responding timely to
                                                      FOIA/Privacy Act requests. The increase in
                                                      responsiveness may, in part, be due to the
Highlights                                            continued decrease in the numbers of
                                                      FOIA/Privacy Act requests received since our
Final Report issued on September 6,                   first review in Fiscal Year 2000.
2011
                                                      WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2011-30-093           Although TIGTA made no recommendations in
to the Internal Revenue Service Commissioner          this report, IRS officials were provided an
for the Small Business/Self-Employed Division.        opportunity to review the draft report. IRS
                                                      management did not provide any report
IMPACT ON TAXPAYERS                                   comments.
The Internal Revenue Service (IRS) must
ensure that the provisions of the Freedom of
Information Act (FOIA), the Privacy Act of 1974
(Privacy Act), and Internal Revenue Code
(I.R.C.) Section (§) 6103 are followed,
particularly because errors can violate taxpayer
rights and result in improper disclosures of tax
information.
WHY TIGTA DID THE AUDIT
TIGTA is required to conduct periodic audits to
determine if the IRS properly denied taxpayers’
written requests for tax account information.
TIGTA is also required to include the results in
one of our Semiannual Reports to Congress.
This is TIGTA’s twelfth review of denials of
FOIA, Privacy Act, and I.R.C. § 6103 requests.
The overall objective of this review was to
determine whether the IRS improperly withheld
information requested by taxpayers in writing
based on FOIA exemption (b)(3), in conjunction
with I.R.C. § 6103, and/or FOIA exemption (b)(7)
or by replying that responsive records were not
available.
WHAT TIGTA FOUND
The IRS continued to improve the accuracy and
completeness of its responses to requests for
information covered by the FOIA. IRS
Disclosure personnel continued to follow
required procedures on all 61 FOIA/Privacy Act
requests TIGTA reviewed. The IRS also
properly adhered to the legal requirements
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           September 6, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Office of Disclosure Continues to Improve
                              Compliance With the Freedom of Information Act Requirements
                              (Audit #201130010)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) improperly withheld information requested by taxpayers in writing based on the Freedom
 of Information Act (FOIA)1 exemption (b)(3), in conjunction with Internal Revenue Code
 (I.R.C.) Section (§) 6103,2 and/or FOIA exemption (b)(7) or by replying that responsive records
 were not available.
 The Treasury Inspector General for Tax Administration is required to conduct periodic audits to
 determine if the IRS properly denied taxpayers’ written requests for tax account information.
 We are also required to include the results in one of our Semiannual Reports to Congress. This
 is our twelfth review of denials of FOIA, Privacy Act of 1974,3 and I.R.C. § 6103 requests.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. IRS management did not provide us with any report
 comments.
 Copies of this report are also being sent to the IRS managers affected by the report. Please
 contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
 General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
   5 U.S.C.A. § 552 (2010).
 2
   I.R.C. § 6103 (2009).
 3
   5 U.S.C. § 552a (2010).
                          The Office of Disclosure Continues to Improve Compliance
                             With the Freedom of Information Act Requirements




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Has Taken Steps to Effectively
          Manage Its Freedom of Information Act Backlog; However, the
          Fiscal Year 2011 Goal May Not Be Met ...................................................... Page 4
          Managerial Controls Effectively Ensured That Disclosure Employees
          Properly Responded to Freedom of Information Act, Privacy
          Act, and Internal Revenue Code Section 6103 Requests for Information .... Page 5
          Freedom of Information Act and Privacy Act Requests Were Generally
          Responded to Timely by the Internal Revenue Service ................................ Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measure ................................................................ Page 15
          Appendix V – Prior Treasury Inspector General for Tax
          Administration Freedom of Information Act Reports .................................. Page 16
         The Office of Disclosure Continues to Improve Compliance
            With the Freedom of Information Act Requirements




                      Abbreviations

AFOIA              Automated Freedom of Information Act
E-DIMS             Electronic-Disclosure Information Management System
FOIA               Freedom of Information Act
FY                 Fiscal Year

I.R.C.             Internal Revenue Code
IRS                Internal Revenue Service
SB/SE              Small Business/Self-Employed
U.S.               United States
                      The Office of Disclosure Continues to Improve Compliance
                         With the Freedom of Information Act Requirements




                                            Background

Statutory requirements
The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration to:
        . . . conduct periodic audits of a statistically valid sample of the total
        number of determinations made by the Internal Revenue Service to deny
        written requests to disclose information to taxpayers on the basis of
        section 61032 of this title3 or section 552(b)(7) of title 5, United States
        Code.4
The three primary laws that govern the types of requests for
information reviewed in this audit are:                                       The FOIA requires agencies
                                                                                to make records of the
The Freedom of Information Act (FOIA) requires Federal                           Federal Government
Government agencies to make records available to the public                     available to the public
                                                                                 upon request unless
upon request unless specifically exempted. Information that                     specifically exempted.
is “specifically exempted from disclosure by statute” is one of
the exemptions. Internal Revenue Code (I.R.C.) Section
(§) 6103 is an example of such a statute; it protects the confidentiality of tax returns and return
information. Records or information compiled for law enforcement purposes are also exempt
from disclosure under the FOIA.
The Privacy Act of 1974 (Privacy Act)5 prohibits Federal Government agencies from relying
on any exemption in the Privacy Act to withhold records that are otherwise available to an
individual under the FOIA.
I.R.C. § 6103, while protecting the confidentiality of taxpayers’ returns and return information,
does allow the taxpayer, or a person designated by the taxpayer, to request and receive the
taxpayer’s specific documents and information.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). The requirements for
this audit are in § 1102 (d)(3)(A) of the statute.
2
  I.R.C. § 6103 (2009).
3
  26 U.S.C. (2009).
4
  Freedom of Information Act, 5 U.S.C.A. § 552 (2010).
5
  U.S.C. § 552a (2010).
                                                                                                          Page 1
                     The Office of Disclosure Continues to Improve Compliance
                        With the Freedom of Information Act Requirements



IRS processing and reporting of FOIA cases
Within the IRS, the Small Business/Self-Employed (SB/SE) Division Office of Communications,
Liaison, and Disclosure (through its Governmental Liaison and Disclosure Branch) is responsible
for ensuring compliance with the FOIA, the Privacy Act, and I.R.C. § 6103. The Office of
Disclosure within the Governmental Liaison and Disclosure Branch sets policy and issues
instructions, guidelines, and procedures to ensure compliance with the disclosure statutes.
The Office of Disclosure within the SB/SE Division processes the FOIA/Privacy Act requests
and the I.R.C. § 6103 requests received by the IRS. In the United States (U.S.) Department of
the Treasury FOIA Annual Report to the Attorney General for Fiscal Year (FY) 2010, the IRS
reported that a total of 12,300 FOIA/Privacy Act cases were processed. This represents a
decrease of 15.2 percent from the 14,507 FOIA/Privacy Act cases processed during FY 2009.
The IRS attributes this decrease to:
    •   A decrease in the number of frivolous requests.
    •   An increase in IRS employee awareness of what types of documents can be released to
        taxpayers without formal FOIA/Privacy Act requests.
    •   Taxpayers being able to receive more information from IRS web sites without having to
        make formal requests.
The U.S. Department of the Treasury FOIA Annual Report for FY 2010 also reported that the
IRS denied or partially denied information to requestors in 2,300 (18.7 percent) of the
12,300 FOIA/Privacy Act cases processed in FY 2010. It advised requestors that there were no
records responsive to requests in 1,204 (9.8 percent) of the 12,300 cases. The remaining cases
were either granted in full or closed for miscellaneous reasons, such as the request was improper
or had been previously granted.

Audit limitations and standards
Individual IRS Disclosure offices or other IRS offices having custody of the records processed
written requests for information made under I.R.C. § 6103. While the IRS is not required to
track all requests made under I.R.C. § 6103, it has elected to do so for requests received by its
Office of Disclosure. The Office of Disclosure used the IRS’s Electronic-Disclosure Information
Management System (E-DIMS)6 and the Automated Freedom of Information Act (AFOIA)
System7 to track requests made under the FOIA/Privacy Act for FY 2010. Requests made under
I.R.C. § 6103 that were received and processed by IRS offices other than the Office of


6
  The primary automated information system used by Governmental Liaison and Disclosure Branch staff for
inventory tracking, work planning, statistical management reports, daily time tracking, etc.
7
  In February 2010, the IRS began implementing the AFOIA System, which will eventually replace the E-DIMS and
become the primary automated information system used by the Governmental Liaison and Disclosure Branch.
                                                                                                     Page 2
                   The Office of Disclosure Continues to Improve Compliance
                      With the Freedom of Information Act Requirements



Disclosure are not controlled on the E-DIMS or the AFOIA System or otherwise inventoried.
Consequently, the volume of these requests is not known. As a result, we can statistically
sample only the I.R.C. § 6103 requests processed directly by the IRS Office of Disclosure and
tracked on the E-DIMS and the AFOIA System.
Beginning in February 2006, the responsibility for processing some requests for I.R.C. § 6103
tax compliance checks and transcripts was transferred from the SB/SE Division Office of
Disclosure to the Wage and Investment Division Return and Income Verification Services Units.
The SB/SE Division continues to process the FOIA/Privacy Act requests for information. The
transfer of responsibility for processing of tax compliance checks and transcripts to the Return
and Income Verification Services Units resulted in an increase in our scope limitation for this
and future years’ audits because the Wage and Investment Division does not record the
I.R.C § 6103 cases on the E-DIMS or the AFOIA System. We reviewed only those requests
processed by the SB/SE Division Office of Disclosure that were denied during the period
October 1, 2009, through September 30, 2010. We determined that the IRS Office of Disclosure
processed 12,962 requests made under I.R.C. § 6103 during this 12-month period.
This review was performed at the Governmental Liaison and Disclosure Branch, SB/SE
Division, in New Carrolton, Maryland, during the period January through May 2011. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 3
                   The Office of Disclosure Continues to Improve Compliance
                      With the Freedom of Information Act Requirements




                                Results of Review

Based on the sample of cases we reviewed, overall, the IRS continues to improve its service to
persons who requested information under the FOIA/Privacy Act. The IRS adhered to
FOIA/Privacy Act requirements and properly withheld, when applicable, information from
requestors in all 61 sample cases reviewed. Also, except for one FOIA/Privacy Act case, the
Office of Disclosure responded timely to the requestors. In addition, the IRS adhered to legal
requirements under I.R.C. § 6103 in all 65 sample cases we reviewed.

The Internal Revenue Service Has Taken Steps to Effectively
Manage Its Freedom of Information Act Backlog; However, the
Fiscal Year 2011 Goal May Not Be Met
Ultimately, the IRS relies on its disclosure personnel to ensure requests under the FOIA are
handled timely and in accordance with laws and regulations. At the top of the agency, a broad
policy statement and the Internal Revenue Manual provide guidance nationwide to disclosure
personnel. The policy statement, among other things, affirms the IRS’s commitment to full
compliance with the FOIA and administering it in a manner consistent with “the fundamental values
held by our society, including public accountability, safeguarding national security, enhancing the
effectiveness of law enforcement agencies and the decision-making processes, protecting sensitive
business information, and protecting personal privacy.”
Besides providing assurances that FOIA requests are handled timely and in accordance with laws
and regulations, the IRS continues in its efforts in carrying out its responsibilities to reduce
inventory backlog under the Government-wide “Improving Agency Disclosure of Information”
initiative. The IRS has taken steps to effectively manage its FOIA backlog. For example, the
IRS Data Services produces a weekly inventory monitoring report, which the Office of
Disclosure uses to break down the inventory per available caseworker. The Office of Disclosure
also has weekly overage reports and monthly Workplan Monitoring reports, both of which
include FOIA inventory and backlog information in order to manage their case inventories.
As shown in Figure 1, statistics provided by the Office of Disclosure show that the IRS has
continued to improve in its reduction of the backlogs of FOIA requests in the past years.
Specifically, there was a 35 percent decrease in the number of cases that were in backlog during
FY 2010 (118 cases) as compared to the number in backlog in FY 2009 (182 cases). Reducing
the number of cases in backlog is particularly important because it is designed to address the
primary reason response time periods are not met under the FOIA.
The IRS’s FY 2011 backlog goal is to reduce its September 30, 2010, backlog of 118 cases by
10 percent to 106 cases. However, the IRS does not expect to meet this reduction in backlog
                                                                                            Page 4
                     The Office of Disclosure Continues to Improve Compliance
                        With the Freedom of Information Act Requirements



goal this year. The primary reason for this is the inability to fill case processing vacancies,
which is currently at 32, about 20 percent of the authorized staffing level. Training and
implementation issues related to the AFOIA system have also affected the IRS’s ability to reduce
backlog. On September 30, 2010, 118 cases were in backlog and, as of March 25, 2011, there
were 156 cases in backlog. This represents a 32 percent increase in backlog since the beginning
of FY 2011. Figure 1 shows the trending of backlogged FOIA requests from FY 2007 through
FY 2011, as of March 25, 2011.
                    Figure 1: Inventory of Backlogged FOIA Requests




 Source: Unaudited data provided by the IRS Office of Disclosure, U.S. Department of the Treasury
 Freedom of Information Act Annual Report to the Attorney General, Fiscal Year 2010, and
 Treasury Inspector General for Tax Administration audit reports issued in FYs 2008–2010.

Managerial Controls Effectively Ensured That Disclosure Employees
Properly Responded to Freedom of Information Act, Privacy Act, and
Internal Revenue Code Section 6103 Requests for Information
The IRS was consistent in its service to persons who requested information under the
FOIA/Privacy Act and I.R.C. § 6103 based on the sample of cases we reviewed. The IRS
continued to improve the accuracy and completeness of its responses to requests for information

                                                                                                    Page 5
                       The Office of Disclosure Continues to Improve Compliance
                          With the Freedom of Information Act Requirements



covered by the FOIA. Specifically, we found that IRS Disclosure personnel continued to follow
required procedures on all 61 FOIA/Privacy Act requests reviewed. The IRS also properly
adhered to the legal requirements under I.R.C. § 6103 in all 65 requests reviewed. Figure 2
shows the audit results for FYs 2000 through 2011.
Figure 2: Improper FOIA/Privacy Act and I.R.C. § 6103 Request Withholdings

        16
                                                    14.6%                            14.5%


        14
                                  12.2%

          12
                       10.7% 10.6%
        ls
         a
         i
         n10                                 9.3%
         e      8.8%
         D
         r
         e                            7.4%
         p                                                  7.1%
         r8
         o                 7.0%
         p
                   6.3%
         Im                                                            6.1%
          f
          o6
          e                                                                    4.6%
          g                                     4.4%
          a
          t
          n                                                                                  3.7%
          e4
          c
          r
                                                                3.1%
          e                                                                   2.3%
          P
            2                                                                                        1.3%        1.3%
                                                                                                                    **1**
                                                                                                0%          0%              0% 0%
          0



                                                            Fiscal Year

                                              FOIA/Privacy Act           I.R.C. § 6103

Source: Treasury Inspector General for Tax Administration audit reports issued in FYs 2000–2011.
Percentages were rounded to the closest tenth.

As previously discussed, the IRS relies on its disclosure personnel to ensure that requests under
the FOIA are handled in accordance with laws and regulations. The Internal Revenue Manual
provides guidance to disclosure personnel nationwide. Throughout the Internal Revenue
Manual, personnel are instructed to properly document in case files all aspects of their work
during the receipt, control, research, response, and closing phases of requests. This
documentation is important because it provides the principal evidence that procedures were
followed, as well as the foundation for other control processes such as management reviews.



                                                                                                                                    Page 6
                     The Office of Disclosure Continues to Improve Compliance
                        With the Freedom of Information Act Requirements



Prior to September 2008, the Office of Disclosure used a Balanced Measures Review Process to
identify and correct potential problems with responses to FOIA/Privacy Act requests. In
January 2008, the final Balanced Measures Review Team report was issued. The Balanced
Measures Review Team examined a sample of FOIA/Privacy Act cases twice a year to 1) assess
how well personnel were meeting the standards for accuracy, completeness, and timeliness;
2) communicate areas of concern to top management; 3) identify potential training needs; and
4) improve work processes.
During FY 2009, the Office of Disclosure implemented a Disclosure Quality Management
System, which is designed to institutionalize a real-time national process for monitoring the
quality of all Office of Disclosure work. The Disclosure Quality Management System process
reviews all Office of Disclosure work assignments annually whereas the former Disclosure
Balanced Measures Review Team reviewed only FOIA/Privacy Act cases biannually. As shown
in Figure 3, the percentages of cases meeting each of the standards have remained consistent
(around 90 percent) since July 2005.
                          Figure 3: Quality Measures Review Results

                   July     January     July     January     July     January    December      December
   Standard
                   2005       2006      2006       2007      2007       2008       2009          2010


   Accuracy        88%        91%       93%        89%       91%        91%         94%           94%

 Completeness      92%        95%       95%        95%       96%        96%         95%           96%

   Timeliness      87%        95%       95%        91%       97%        96%         98%           98%

Source: IRS Office of Disclosure Balanced Measures Review Reports and Disclosure Quality Management System
Report.

Disclosure managers, who are responsible for the quality of work done locally by the personnel
they manage, conduct these reviews using the Disclosure Quality Management System. By
reviewing ongoing work, managers attempt to identify problems and correct potential problems
before they have an adverse effect on taxpayers.

Freedom of Information Act and Privacy Act Requests Were Generally
Responded to Timely by the Internal Revenue Service
The FOIA requires Federal Government agencies to respond within 20 business days of the
receipt of a request or, if the 20 days are not sufficient, to notify the requestor of the reason why
the request cannot or will not be filled. If they are unable to respond to a request within the time
limit, Federal Government agencies are required to immediately notify the requestor of this fact,
of the reasons why they are unable to respond, and of the requestor’s right to appeal.
                                                                                                    Page 7
                      The Office of Disclosure Continues to Improve Compliance
                         With the Freedom of Information Act Requirements



The due date for a FOIA request is revised when the IRS sends a letter to the requestor
exercising its right for an automatic 10-day extension and/or requesting a voluntary extension in
excess of the initial statutory 20-day period for FOIA requests. The requestor must agree to the
voluntary extension, and the IRS must notify the requestor of its ability to respond by the end of
the extension period. A case is untimely when the IRS responds to the requestor after the due
date. For Privacy Act cases, the IRS must respond within 30 business days of the taxpayer’s
request.
Since FY 2000, the IRS has made significant improvement in the timeliness of responses to
FOIA/Privacy Act requests. In our audits over the previous 11 years,8 the percentages of
untimely responses ranged from zero percent to 43.5 percent. The increase in responsiveness
may, in part, be due to the continued decrease in the numbers of FOIA/Privacy Act cases
received during FY 2010 compared to FY 2009 and the prior years this review has been
conducted. Figure 3 shows the percentages of untimely cases we have reported since FY 2000.
            Figure 3: Comparison of Untimely FOIA/Privacy Act Responses




        Source: Treasury Inspector General for Tax Administration audit reports issued in FYs 2000–2011.
        Percentages were rounded to the closest tenth.


8
  We did not evaluate the timeliness of responses to FOIA and Privacy Act requests in the FY 2004 audit because
the IRS was in the process of implementing our recommendations to improve timeliness.
                                                                                                          Page 8
                   The Office of Disclosure Continues to Improve Compliance
                      With the Freedom of Information Act Requirements



The results of our last three audits (reports issued FYs 2009, 2010, and 2011) found that the IRS
has remained relatively consistent in providing responses to requestors within the statutory time
periods. During our review of the FY 2010 FOIA/Privacy Act requests, only 1 (1.64 percent) of
the 61 FOIA/Privacy Act cases was found to have an untimely response. According to the IRS,
the response was late because the caseworker was delayed in reviewing documents due to
attending a training class, and that the requestor was contacted after the statutory deadline date
and agreed to accept a late response. When the sample results are projected to our population of
2,741 cases closed during the period October 1, 2009, through September 30, 2010, the results
indicate that approximately 45 FOIA/Privacy Act requests were not processed timely. The
projection is based on a 90 percent confidence level. We expect the number of requestors who
may have received untimely responses to range from 2 to 207 cases.




                                                                                            Page 9
                      The Office of Disclosure Continues to Improve Compliance
                         With the Freedom of Information Act Requirements



                                                                                       Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS improperly withheld
information requested by taxpayers in writing based on the FOIA1 exemption (b)(3), in
conjunction with I.R.C. § 6103,2 and/or FOIA exemption (b)(7) or by replying that responsive
records were not available. To accomplish this objective, we:
I.      Identified any changes to the policies, operating procedures, systems, documents/files,
        risks, laws, and regulations related to the receipt, disposition, and resolution or denials of
        requests for information under the FOIA that have occurred since last year’s review.
II.     Identified the management controls that are in place to ensure the timely and proper
        receipt, disposition, and resolution or denials of requests for information under the FOIA.
III.    Determined whether the IRS properly adhered to statutory FOIA and Privacy Act of 1974
        (Privacy Act)3 requirements, as well as procedural requirements.
        A. Obtained an extract from the AFOIA System and the E-DIMS for the period
           October 1, 2009, through September 30, 2010, and identified 2,741 FOIA/Privacy Act
           cases closed as denied or partially denied based on FOIA exemption (b)(3), in
           conjunction with I.R.C. § 6103, or on FOIA exemption (b)(7) or where the IRS
           replied responsive records did not exist. We validated the data extract by performing
           specialized queries.
        B. Designed an attribute sample based on a confidence level of 90 percent, an expected
           error rate of 6 percent, and an estimated precision of ± 5 percent. Based on these
           parameters, a statistically valid sample size was 61 cases. This sampling
           methodology was chosen so we could project the number of cases with improper
           withholdings to the universe of cases that were partially or fully denied based on
           FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
           exemption (b)(7), or for which requestors were told records were not available. We
           increased the attribute sample size from 61 cases to 81 cases to account for the
           possibility that some case files would be unavailable. For the 81 randomly selected
           cases requested, we received 61 case files.



1
  5 U.S.C.A. § 552 (2008).
2
  I.R.C. § 6103 (2009).
3
  5 U.S.C. § 552a (2010).
                                                                                              Page 10
                 The Office of Disclosure Continues to Improve Compliance
                    With the Freedom of Information Act Requirements



      C. Reviewed the 61 sampled cases and determined whether the decision to withhold
         information was appropriate, the record search was adequate, and the determination
         was made in a timely manner.
      D. Projected the number of untimely determinations in the range of 2 to 207
         (0.08 percent to 7.54 percent) for FOIA/Privacy Act cases that were partially or fully
         denied based on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or
         FOIA exemption (b)(7), or for which requestors were told records were not available.
         The projection was made using the Exact Binomial method for attribute sampling,
         with a 90 percent confidence level and an actual error rate of 1.64 percent. As a
         result, the actual precision factors were -1.56 percent and 5.90 percent. The accuracy
         of our projection was reviewed and confirmed by our contracted statistician.
      E. Discussed all exception cases with Office of Disclosure personnel.
      F. Reviewed the U.S. Department of the Treasury FOIA Annual Report to the Attorney
         General for FY 2010 showing various statistics for FOIA/Privacy Act cases,
         including appeals and closures. This information was not independently verified
         because the accuracy of these statistics did not affect the accomplishment of our audit
         objective.
IV.   Determined whether the IRS Office of Disclosure is adhering to legal requirements when
      denying written requests received from taxpayers under I.R.C. § 6103.
      A. From the national extract obtained for Step III. A., identified 12,962 I.R.C. §§ 6103
         (c) and (e) requests.
      B. Designed an attribute sample based on a confidence level of 90 percent, an expected
         error rate of 6.3 percent, and an estimated precision of ± 5 percent. Based on these
         parameters, the size of the statistically valid sample was 65 cases. This sampling
         methodology was chosen because it would allow us to project the number of cases
         with improper withholdings to the universe of closed I.R.C. §§ 6103 (c) and (e)
         requests for which information was partially or fully denied or for which the IRS
         replied that responsive records did not exist.
      C. Selected a random sample of 400 of the 12,962 I.R.C. §§ 6103 (c) and (e) closed
         cases and requested case files for 400 cases from the IRS. We selected a larger
         sample size to account for the possibility that some case files would be unavailable
         and/or the cases received would not meet our objective criteria. We reviewed the
         cases received to identify the necessary 65 cases for our sample that included
         instances in which information was partially or fully denied or in which the IRS
         replied that responsive records did not exist.




                                                                                        Page 11
                   The Office of Disclosure Continues to Improve Compliance
                      With the Freedom of Information Act Requirements



       D. Reviewed the 65 cases identified and determined whether the decision to withhold the
          information based on I.R.C. § 6103 was appropriate.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, operating procedures,
systems, laws, and regulations related to the receipt, disposition, and resolution or denials of
requests for information under the FOIA to evaluate whether the IRS improperly withheld
information requested by taxpayers in writing. We evaluated these controls by reviewing source
materials, interviewing management, and reviewing a sample of closed FOIA/Privacy Act and
I.R.C. § 6103 cases.




                                                                                         Page 12
                  The Office of Disclosure Continues to Improve Compliance
                     With the Freedom of Information Act Requirements



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Michelle Philpott, Audit Manager
Donna Saranchak, Lead Auditor
William Tran, Senior Auditor
Bridgid Shannon, Auditor




                                                                                      Page 13
                  The Office of Disclosure Continues to Improve Compliance
                     With the Freedom of Information Act Requirements



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Governmental Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD:GLD
Chief, Disclosure, Small Business/Self-Employed Division SE:S:CLD:GLD:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S:CLD




                                                                                    Page 14
                    The Office of Disclosure Continues to Improve Compliance
                       With the Freedom of Information Act Requirements



                                                                                   Appendix IV

                                 Outcome Measure

This appendix presents detailed information on the measurable impact that the results of our
audit will have on tax administration. This benefit will be incorporated into our Semiannual
Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 45 responses to FOIA/Privacy Act requests
    were not processed within the required statutory time periods during the 12-month period
    October 1, 2009, through September 30, 2010 (see page 7).

Methodology Used to Measure the Reported Benefit:
•   We reviewed a statistically valid sample of 61 cases from a population 2,741 FOIA/Privacy
    Act requests closed nationally during the period October 1, 2009, through September 30,
    2010, as either a:
       1) Full or partial denial with either FOIA exemption (b)(3), in conjunction with
          I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for
          withholding information.
       2) Request for which the IRS replied that responsive records did not exist.
•   We identified one case where the IRS’s response was issued after the statutory due date.
•   Based on our sample error rate of 1.64 percent (1/61) and a confidence level of 90 percent,
    we calculated the number of untimely responses to be 45 [2,741 x 1.64 percent], with a range
    of 2 to 207. We arrived at the estimate by multiplying the number of requests closed as 1) or
    2) as listed in the prior paragraph by the percentage of untimely responses identified in our
    sample. The projection was made using the Exact Binomial method for attribute sampling,
    with a confidence level of 90 percent and an actual error rate of 1.64 percent. As a result, the
    actual precision factors were -1.56 percent and 5.90 percent.




                                                                                            Page 15
                  The Office of Disclosure Continues to Improve Compliance
                     With the Freedom of Information Act Requirements



                                                                             Appendix V

     Prior Treasury Inspector General for Tax
 Administration Freedom of Information Act Reports

Taxpayers Should Be Provided Timely Service When Appealing Denied Requests Under the
Freedom of Information Act (Reference Number 2000-10-116, dated August 15, 2000).
The Internal Revenue Service Should Continue Taking Action to Improve Compliance With the
Freedom of Information Act and Related Procedures (Reference Number 2001-10-112, dated
July 25, 2001).
Actions Should Continue to Be Taken to Improve Compliance With the Freedom of Information
Act and Related Procedures (Reference Number 2002-10-093, dated May 20, 2002).
Opportunity for Improvement Exists for Compliance With the Freedom of Information Act and
Related Procedures (Reference Number 2003-10-164, dated August 22, 2003).
Improvements Are Needed to Ensure Compliance With the Freedom of Information Act
(Reference Number 2004-40-064, dated March 30, 2004).
Some Improvements Have Been Made to Better Comply With Freedom of Information Act
(Reference Number 2005-10-089, dated May 26, 2005).
Compliance With Freedom of Information Act Requirements Has Increased (Reference Number
2006-10-129, dated August 31 2006).
The Office of Disclosure Can Improve Compliance With the Freedom of Information Act
Requirements (Reference Number 2007-10-133, dated August 31, 2007).
The Office of Disclosure Continued to Improve Compliance With the Freedom of Information
Act Requirements (Reference Number 2008-30-164, dated August 29, 2008).
The Office of Disclosure Continues to Improve Upon Its Response to Taxpayers’ Requests Under
the Freedom of Information Act (Reference Number 2009-30-115, dated September 4, 2009).
The Office of Disclosure Continues to Improve Compliance With the Freedom of Information Act
Requirements (Reference Number 2010-30-090, dated August 3, 2010).




                                                                                      Page 16
